NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL


               HOME MORTGAGE DISCLOSURE ACT
                   DATA ANALYSIS REVIEW


                           Report #OIG-08-09
                           November 7, 2008




                            William DeSarno
                            Inspector General


Released By:                                    Auditor-in-Charge:



James Hagen                                     Charles E. Funderburk, CPA
Assistant Inspector General for Audits          Senior Auditor
                     TABLE OF CONTENTS


                                         Page

EXECUTIVE SUMMARY                         2

BACKGROUND                                3

PURPOSE AND OBJECTIVES                    5

SCOPE AND METHODOLOGY                     5

RESULTS                                   6

APPENDIX – MANAGEMENT RESPONSE            10
                                      EXECUTIVE SUMMARY
The Home Mortgage Disclosure Act (HMDA), implemented by the Federal Reserve
Board’s (FRB) Regulation C (12 CFR 203), requires credit unions and other financial
institutions to compile and disclose data about home purchase loans, home improvement
loans, and refinancings they originate or purchase, or for which they receive applications.
In addition, several loan applicant/ borrower characteristics must also be reported.

One of the purposes of Regulation C is to assist in identifying possible discriminatory
lending patterns and enforcing compliance with anti-discriminatory statutes. The
National Credit Union Administration (NCUA) is responsible for enforcing HMDA
regulations for all credit unions.

The NCUA Office of Inspector General (OIG) initiated an audit survey to determine what
NCUA is doing to ensure that HMDA data is used and followed-up on to prevent
instances of possible discriminatory lending practices.

As a result of our interviews with several NCUA staff, we concluded that NCUA is not
utilizing HMDA data to the fullest extent possible in identifying possible discriminatory
lending. However, NCUA does determine that all required credit unions file their
HMDA information in a timely manner.

NCUA’s efforts in determining the accuracy of HMDA filed data are somewhat limited.
NCUA district examiners may review HMDA data for accuracy if there is a related risk
identified during the exam scoping process. Some of the potential risk indicators could
be, late filing of HMDA data in a prior year or a credit union listed on the Federal
Reserve’s “pricing outlier” report1. NCUA fair lending examiners determine the
accuracy of HMDA data during their fair lending examination process. However, only
five fair lending examinations are performed each year for each of the five NCUA
regions.

In addition, NCUA’s discriminatory lending analytical efforts are also limited. Annually,
the Federal Reserve Board sends a “pricing outlier” report to NCUA, which in turn
forwards it to the appropriate NCUA regional office. This report isolates credit unions
which potentially discriminate in their mortgage pricing. According to NCUA’s Office
of Examination and Insurance (E&I), there are approximately one or two credit unions on
the list each year.

 NCUA performs limited analysis of loan application register HMDA data for other
potential discriminatory lending patterns. According to E&I, that office is in the process
of developing such analysis. This analysis is expected to be operational in 2009.

The OIG has offered one recommendation addressing the above concerns.

1
  This report provides data on interest rates charged for loans as an indicator of potential discrimination in mortgage
pricing.


                                                            2
                                   BACKGROUND
The Home Mortgage Disclosure Act (HMDA), implemented by the FRB’s Regulation C
(12 CFR 203), requires credit unions and other financial institutions to compile and
disclose data about home purchase loans, home improvement loans, and refinancings that
they originate or purchase, or for which they receive applications. In addition, several
loan applicant/ borrower characteristics must be reported.

The purpose of Regulation C is to provide the public with data that can be used to:

   1. Help determine whether financial institutions are serving the housing needs of
      their communities;
   2. Assist public officials in distributing public sector investments so as to attract
      private investment to areas where it is needed; and
   3. Assist in identifying possible discriminatory lending patterns and enforcing
      compliance with ant-discriminatory statutes

NCUA is responsible for enforcing HMDA regulations in all credit unions and the Equal
Credit Opportunity Act (ECOA) in federally chartered credit unions. NCUA also has a
collateral responsibility to report identified violations of the Fair Housing Act (FHA) to
the Department of Justice or Department of Housing and Urban Development, if
appropriate. Although NCUA is not the enforcement authority for all regulations
associated with fair lending, Title II of the Federal Credit Union Act authorizes NCUA to
initiate administrative actions against credit unions for violations of law. NCUA can also
issue administrative actions for unsafe and unsound practices. Weaknesses in fair
lending procedures could constitute unsafe and unsound practices and ultimately risk of
loss to the National Credit Union Share Insurance Fund (NCUSIF), if the violations
potentially expose an insured credit union to costly litigation or civil remedies.

Whether a credit union is require under HMDA to file a loan application register
generally depends on its asset size, its location, and whether it is in the business of
residential mortgage lending. Specifically, a credit union must collect HMDA data
associated with mortgage applications processed during the year, if:

        Total assets, as of December 31 exceed the threshold established by the FRB
        ($37 million at 12/31/07); and
        The credit union has a home, office or branch in a metropolitan statistical area
        (MSA), as defined by the Office of Management and Budget; and
        During the reporting year, the credit union originated at least one home purchase
        loan or a refinance of a home purchase loan secured by a first lien on a one to
        four family dwelling

Credit unions that meet the above criteria are required to send their loan application
register HMDA data to NCUA’s processing agency, the FRB, by March 1 following the
calendar year which loan data is compiled. Every loan application, origination and
purchase must report data about the:



                                             3
       Loan, such as type and amount;
       Property, such as location and type;
       Disposition of the application, such as whether it was denied or resulted in an
       origination; and
       Applicant such, as ethnicity, race, sex and income.

The FRB processes the data on behalf of the Federal Financial Institutions Examination
Council (FFIEC). The FFIEC prepares, from the loan application register HMDA data, a
series of tables that comprise the public mortgage loan disclosure statement for each
credit union. Credit unions must make their disclosure statement available to the public
and retain LAR data for three years. In addition, the FFIEC combines HMDA data
submitted by all financial institutions and produces aggregate tables for each MSA
showing lending patterns according to demographic characteristics provided by the
Census bureau. The FRB makes the data base information available to financial
regulators, such as NCUA, provides edit checks on credit union submitted data, and
provides loan pricing “outlier reports” to NCUA.




                                            4
                        PURPOSE AND OBJECTIVES
The United States Congress has shown a renewed interest in federal regulation of fair
lending laws, especially as it relates to mortgage lending. On July 25, 2007, the NCUA
Director of Examination and Insurance testified before the U.S. House of Representatives
Financial Services Subcommittee on Oversight and Investigations. On April 11, 2008,
the U.S. House Financial Service Committee Chairman requested the Government
Accountability Office to perform a comprehensive review of the current state of federal
enforcement of the Equal Credit Opportunity Act, the Home Mortgage Disclosure Act
(HMDA), the Fair Housing Act, and other related fair lending laws.

HMDA data is reported annually for all qualified credit unions. This data contains
various mortgage lending and demographic information. Therefore, the NCUA OIG
initiated an audit survey with the following objective:

       Determine what NCUA is doing to ensure that HMDA data is used and followed-
       up on to prevent instances of possible discriminatory lending practices.

                       SCOPE AND METHODOLOGY
The time period reviewed was the 2006 and 2007 HMDA filing years. The OIG obtained
information from NCUA’s E&I and Region II.

Some of the procedures performed were:

       Interview of E&I and Region II staff
       Review of HMDA regulation
       Review of NCUA Regulatory Alerts, Examiner’s Guide, and NCUA Consumer
       Compliance Self Assessment Guide
       Review of FFIEC Guide to HMDA reporting




                                           5
                                      RESULTS


One of the purposes of the HMDA is to assist financial regulators in identifying possible
discriminatory lending patterns and enforcing compliance with anti-discriminatory
statutes. Under NCUA’s Risk Focused Examination Program, examiners exercise
judgment in developing variable scope procedures to determine the risk or existence of
discriminatory lending. Examiners are required to consider such factors as HMDA data,
credit union member complaints, prior examination concerns, lending program
complexity, and credit union field of membership when determining what examination
procedures will be performed. In addition, separate fair lending examinations may be
performed in credit unions by NCUA consumer compliance subject matter examiners.
The number of fair lending examinations and related examiner hours allocated to these
examinations are budgeted each year by a joint effort of E&I and each of the five NCUA
regional offices. The factors used in the selection of specific credit unions for a fair
lending examination, are the same factors used in the Risk Focused Examination
Program, discussed above.

In order to be useful in identifying possible discriminatory lending patterns and enforcing
compliance with anti-discriminatory statutes, we believe the loan application register
HMDA data should be:

        Completed by all required credit unions;
        Submitted timely to the FRB by credit unions;
        Verified for accuracy; and
        Analyzed by NCUA

NCUA ensures that all required credit unions file their loan application register HMDA
data with the FRB in a timely manner. However, NCUA performs limited testing to
verify the accuracy of the HMDA data reported and performs limited analysis of such
data for possible discriminatory lending in credit unions.

All Required Loan/Application Registers Received

NCUA determines if all required credit unions have filed an annual loan application
register with the FRB. Annually, NCUA issues a Regulatory Alert informing credit
union officials of the HMDA filing requirements and reporting deadlines. E&I works
with the FRB to ensure that all required credit unions have filed their loan application
register data. E&I will then follow-up with the regions for any non-filing credit unions.
Therefore, it appears that NCUA performs sufficient oversight to ensure that all required
credit unions file their loan application register.

Loan/Application Registers Submitted Timely

NCUA determines if all required credit unions have filed an annual loan application
register with the FRB by the March 1st due date. NCUA’s focus to date has been on



                                             6
ensuring the timeliness of loan application register filings with the FRB. E&I obtains
information, on a periodic basis prior to the March 1st filing deadline, from the FRB
regarding which credit unions have not filed a LAR. E&I forwards this information to
the appropriate NCUA region for follow-up. This information is also used to set up
parameters for civil money penalties on late filing credit unions. The late filing credit
unions will receive a Preliminary Warning Letter prior to any assessment of penalties.

The number and amount of NCUA assessed civil penalties on credit unions for late filing
of HMDA for 2005 and 2006 was:

            Year                      Number of Penalties          Amount of Penalties
            2006                             22                       $174,500
            2005                             18                       $220,250

Based on our review, it appears that NCUA performs sufficient oversight to ensure that
credit unions file their loan application register data in a timely fashion.

Loan/Application Registers Accuracy

NCUA performs limited testing of the accuracy of loan application register HMDA data
submitted by credit unions. NCUA district examiners may review HMDA data for
accuracy if there is a related risk identified during the exam scoping process. Some of
the potential risk indicators might include, late filing of HMDA data in a prior year or a
credit union listed on the FRB’s “pricing outlier” report. NCUA fair lending examiners
determine the accuracy of HMDA data during their fair lending examination process.
However, only five fair lending examinations, on average, are performed each year for
each of the five NCUA regions.

The number of fair lending exams performed over the past five years compared to the
total number of federally insured credit unions (FICUs) reporting HMDA data was:

        Year           Fair Lending Exams         Fair Lending Exam    CUs Reporting loan
                                                       Findings -      application register
                                                    HMDA Errors           HMDA Data
        2007                     26                        9                  2,042
        2006                     24                       16                  2,060
        2005                     25                       14                  2,073
        2004                     24                       10                  1,981
        2003                     30                        2                  1,903

HMDA Data Analyzed

NCUA conducts limited analysis on loan application register HMDA data for potential
discriminatory lending patterns for the majority of credit unions. Annually, the FRB
sends a “pricing outlier” report to NCUA, which in turn forwards it to the appropriate
NCUA regional office. This report isolates credit unions which potentially discriminate



                                              7
in their mortgage pricing. According to E&I, there are approximately one or two credit
unions on the list each year. However, NCUA does not currently perform any analysis of
loan application register HMDA data for other potential discriminatory lending patterns.
According to E&I, that office is in the process of developing such an analysis. This
analysis is expected to be operational in 2009, and primarily addresses potential “outlier”
credit unions which are reporting significantly higher rates of credit denials and/or
incidences of granting higher priced loans. This analysis will identify lending disparities
among races and ethnic groups and trends by credit union type. A secondary objective is
to identify common data reporting problems. The analysis methodology will be a
comparison of ratios of different loan application actions (approvals, denial, higher priced
loans) among various borrower characteristics and credit union types. The results of the
analysis will be shared with NCUA Regional Directors for their use in planning fair
lending examinations.

According to E&I, NCUA has taken several steps to mitigate the lack of analysis of loan
application register HMDA data. Including the following:
       District examiners look at HMDA data during routine safety and soundness
       examinations as warranted by the examiner’s assessment of risk.
       Regional Offices have access to HMDA data from the FFIEC’s web site and
       conduct their own analysis.
       E&I and the Office of Capital Markets and Planning are in the early stages of
       reviewing global HMDA data and have conducted preliminary assessments.

Due to the nature and process of the risk focused exam where if a problem is not
identified it is then not documented, we were unable to verify examiners review of
HMDA data during routine safety and soundness examinations.

The number of consumer compliance violations related to fair lending in regular exams
from January 1, 2004 through June 30, 2006 was:

              Category                              Number of Violations
              Equal Credit Opportunity                               456
              Act
              Home Mortgage Disclosure                                 223
              Act
              Fair Housing Act                                         101


NCUA, at this time, is not fully utilizing mortgage lending information provided by
credit unions for the purpose of assessing potential discriminatory lending patterns in
those institutions.

However, according to E&I, several variables have influenced decisions by NCUA to
focus resources on other areas at the expense of further developing fair lending review
procedures such as:
        A limited volume of complaints from consumers about fair lending issues, and



                                             8
      During examinations, NCUA has not uncovered a material volume of substantive
      violations related to fair lending issues.


RECOMMENDATION: NCUA should follow through on its plan to develop and
implement an analysis method of the universe of credit union HMDA data for the
purpose of determining potential discriminatory lending patterns.

MANAGEMENT RESPONSE: Management agreed with our recommendation and
plans to implement corrective action in 2009.

OIG RESPONSE: We agree with the proposed action.




                                         9
                                                                        APPENDIX



SENT VIA E-MAIL                                                     EI/RAB:rab
                                                                    SSIC #1910


TO:      Inspector General William DeSarno
         Office of Inspector General

FROM: Executive Director J. Leonard Skiles /S/
      Office of the Executive Director

SUBJ:    Home Mortgage Disclosure Act Data (HMDA) Analysis Review
         OIG Report #OIG-08-09

DATE:    November 3, 2008

Examination & Insurance (E&I) concurs with your recommendation to continue
developing and then implement an analysis methodology for the credit union
HMDA data for purposes of determining potential discriminatory lending patterns.
Barring unforeseen difficulties, E&I has set a goal of completing this project in
2009.

E&I would like to note that HMDA data, in and of itself, does not serve as
conclusive evidence of the merits of an individual credit union’s lending practices
because the data does not document vital factors such as an applicant’s credit
history, debt-to-income ratio, or loan-to-value ratio. As such, E&I believes the
HMDA data is better suited to serve as an indicator of potential discriminatory
lending rather than actual discriminatory lending. Therefore, the Agency will
continue to place emphasis on monitoring compliance with fair lending laws and
regulations through the safety and soundness examination process, fair lending
examination program, and credit union member complaint process.

If you have any questions, contact Program Officer Roger Blake in E&I at 703-
518-6385.



cc:   James Hagen, Assistant Inspector General for Audits




                                        10
